First District Court of Appeal
State of Florida
No. 1D20-390

Frederick Dale Knight,
Appellant,
v.
State of Florida,
Appellee.

On appeal from the Circuit Court for Duval County.
Marianne L. Aho, Judge.
November 20, 2020
Per Curiam.
Affirmed.
Lewis, Bilbrey, and Kelsey, JJ., concur.

ATot final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
July 21, 2020
CASE NO.: 1D20-0390
L.T. No.: 2018-CF-6246
Frederick Dale Knight
Appellant / Petitioner(s)

v.

State of Florida
Appellee / Respondent(s)

BY ORDER OF THE COURT:
Appellant is directed to serve a copy of the motion for extension of time to file initial
brief docketed July 20, 2020, on the Attorney General, and to file a supplemental certificate of
service within 10 days of this order which demonstrates that service. The failure of Appellant to
timely comply with this order will result in striking of the motion for extension of time to file
initial brief, as authorized by Florida Rule of Appellate Procedure 9.410(a).
I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Andy Thomas, PD
Kasey Helms Lacey, APD
Frederick Knight

Hon. Ashley Moody, AG
Russell B. McCormick

ms

msm
osr

w

fVSfmSX DISTRICT

c
KRISTINA SAMUELS, CLERK

Q\

5gr

m
m

OF VV

J

DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
July 01, 2020
CASE NO.: 1D20-0390
L.T. No.: 2018-CF-6246
Frederick Dale Knight

v.

Appellant / Petitioner^,

State of Florida
Appellee / Respondent(s)

BY ORDER OF THE COURT:
Appellant in proper person is granted 30 days from the date of this order to serve an
initial brief. Failure to timely serve a pro se brief will result in this case being presented to the
court without benefit of a pro se brief. Pending further order of this court, appellee shall not be
required to serve an answer brief. If the panel of judges which considers the merits of this
appeal finds that the record or briefs support any arguable claims, additional briefing will be
ordered in accordance with In re Anders Briefs, 581 So. 2d 149 (Fla. 1991).
I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Andy Thomas, PD
Kasey Helms Lacey, APD
Frederick Knight

Hon. Ashley Moody, AG
Russell B. McCormick

ms

'mmm
KRISTINA SAMUELS, CLERK

s

11

f

m

I

IN THE CIRCUIT COURT, FOURTH JUDICIAL
CIRCUIT, IN AND FOR DUVAL COUNTY,
FLORIDA
CASE: 16-2018-CF-006246-AXXX-MA
DIVISION: CR-H (Circuit)

AJUNTTf,

STATE OF FLORIDA
vs.

FREDERICK DALE KNIGHT, DEFENDANT

ORDER
THIS CAUSE COMING ON BEFORE THE COURT UPON THE ^DEFENDANT’S □STATE'S
MOTION TO SUPPRESS
FILED HEREIN ON THE 18TH DAY OF DECEMBER, 2018 AND THE COURT HAVING HEARD ARGUMENTS OF
THE STATE'S ATTORNEY AND OF COUNSEL FOR DEFENSE, AND BEING FULLY ADVISED IN THE PREMISES, IT IS
THEREUPON
ORDERED AND ADJUDGED THAT THE AFORESAID MOTION SHALL BE AND THE SAME IS HEREBY:

. I-fkL
otn 4^, r-eco^d
\ ^ M\coYfo^r
l£M 'cei-&v*mce.

G-J-l- Jolf

DONE AND ORDERED IN OPEN COURT AT JACKSONVILLE, DUVAL COUNTY, FLORIDA, THIS 21 ST DAY
OF JUNE, 2019.

MARIANNE AHO

r

Circuit Judge

FILED
JUN 2 1 2019
CLERK CIRCl/fT COURT

PAGE# 191

Additional material
from this filing is
available in the
Clerk's Office.

